Approx* A

(2 of 2)

No. 19-3732

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DWAYNE WILSON,
Petitioner-Appellant,
v.

ED SHELDON, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Oct 30, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, GRIFFIN, and LARSEN, Circuit Judges.

Dwayne Wilson, a pro se Ohio prisoner, petitions for rehearing of this court’s order, entered
on July 17, 2020, denying his application for a certificate of appealability to appeal the district
court’s judgment dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254.
We conclude that the court did not act under any misapprehension of law or fact in denying
Wilson’s application for a certificate of appealability. Accordingly, we DENY Wilson’s rehearing
petition.

' ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 19-3732

Document: 17-2

Filed: 07/17/2020

Page: 1

No. 19-3732
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DWAYNE WILSON,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.

ED SHELDON, Warden,
Respondent-Appellee.

FILED

Jul 17,2020
DEBORAH S. HUNT, Clerk
ORDER

Before: WHITE, Circuit Judge.
Dwayne Wilson, a pro se Ohio prisoner, appeals from the district court’s order dismissing
his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. This court construes Wilson’s
notice of appeal as an application for a certificate of appealability (COA). Wilson also moves for
permission to proceed in forma pauperis (IFP), for the appointment of counsel, and for an
evidentiary hearing.
In 2015, an Ohio jury found Wilson guilty of seven counts of rape and four counts of
kidnapping. The trial court also found Wilson to be a sexual predator, and the court sentenced him
to life imprisonment. On direct appeal, the Ohio Court of Appeals affirmed his convictions and
sentence. State v. Wilson, 51 N.E.3d 676 (Ohio Ct. App. 2016). The Ohio Supreme Court
subsequently denied Wilson’s motion to file a delayed appeal. Wilson also filed a post-conviction
petition, which the trial court denied. Additionally, the trial court denied several other post­
conviction motions filed by Wilson, including a second petition for post-conviction relief.
In 2017, Wilson filed his § 2254 petition in the district court, alleging several violations of
his constitutional rights.

The district court adopted the magistrate judge’s report and

recommendation, Wilson v. Coleman, No. L17CV02500, 2019 WL 1994070 (N.D. Ohio Mar. 26,
2019), and dismissed the petition because Wilson had procedurally defaulted his claims in state

(2 of 3)

Case: 19-3732

Document: 17-2

Filed: 07/17/2020

Page: 2

No. 19-3732

-2court. Wilson v. Coleman, No. 3:17 CV 2500, 2019 WL 1989628 (N.D. Ohio May 6, 2019).
Additionally, the district court denied Wilson a COA to appeal its decision.
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. A petitioner satisfies this standard by demonstrating that reasonable jurists
“could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.” Buck v.
Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327, 336 (2003));
see also Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Wilson has forfeited any challenge to the district court’s judgment by failing to file
objections to the magistrate judge’s report despite being advised of the consequences for not doing
so. His failure to file objections forfeits his challenge to the district court’s dismissal of his claims.
See Berkshire v. Beauvais, 928 F.3d 520, 530 (6th Cir. 2019). Even if Wilson had not forfeited
his claims, reasonable jurists could not disagree with the district court’s conclusion that his claims
were procedurally defaulted.
Accordingly, Wilson’s COA application is DENIED. Additionally, his motions for IFP
status, appointment of counsel, and an evidentiary hearing are DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(3 of 3)

Case: l:17-cv-02500-JZ Doc#: 19 Filed: 05/06/19 lot2. PagelD#:1660

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION
Dwayne Wilson,

Case No. 3:17 CV 2500
Petitioner,

ORDER ADOPTING
REPORT AND RECOMMENDATION

-vsJUDGE JACK ZOUHARY
Warden John Coleman,
Respondent.
Petitioner pro se Dwayne Wilson, a prisoner in state custody, filed a Petition seeking a writ
of habeas corpus under 28 U.S.C. § 2254 (Doc. 1). This case was referred to Magistrate Judge
Jonathan Greenberg for a Report and Recommendation (R&R) under Local Rule 72.2. The R&R
(Doc. 16) recommends the Petition be dismissed as procedurally defaulted (id. at 18, 28). The
deadline for objections has passed, and Wilson filed none. Wilson did file, however, a Motion to
Stay (Doc. 17), which Coleman opposes (Doc. 18).
Turning first to Wilson’s Motion to Stay, he asks this Court to stay his Petition pursuant to
Rhines v. Weber, 544 U.S. 269, 279 (2005). But Rhines discussed staying “mixed” petitions — those
that include both exhausted and unexhausted claims. Id. at 271. The reason for staying a mixed
petition is that a stay “allow[s] the petitioner to present his unexhausted claims to the state court in
the first instance, and then to return to federal court for review of his perfected petition.” Id. at 271—
72. Here, by contrast, Rhines’’s stay-and-abeyance procedure does not apply because “this is not a
mixed petition” (Doc. 18 at 3). Wilson’s Petition contains only claims that are procedurally defaulted
(Doc. 16 at 16, 27). Thus, a stay here is not appropriate.

Case: l:17-cv-02500-JZ Doc#: 19 Filed: 05/06/19 2 of 2. PagelD#:1661

Turning next to the R&R, this Court reviews de novo those portions of the R&R to which
objections are made. 28 U.S.C. § 636(b)(1). Failure to file objections within the timeframe set forth
in the statute constitutes a waiver of de novo review. See Thomas v. Am, 474 U.S. 140, 153-55
(1985); United States v. Sullivan, 431 F.3d 976, 984 (6th Cir. 2005). This Court has reviewed the
R&R and finds it accurately states the facts and law. This Court therefore adopts the R&R in its
entirety.
Accordingly, the Motion to Stay (Doc. 17) is denied, and the Petition (Doc. 1) is dismissed.
This Court further certifies an appeal from this decision could not be taken in good faith, and there is
no basis upon which to issue a certificate of appealability. 28 U.S.C. §§ 1915(a)(3), 2253(c).
IT IS SO ORDERED.
s/ Jack Zouharv
JACK ZOUHARY
U. S. DISTRICT JUDGE
May 6, 2019

2

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 1 of 29. PagelD#:1615

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

DWAYNE WILSON,
Petitioner,
v.
JOHN COLEMAN,
Warden
Respondent.

)
)
)
)
)
)
)
)
)
)

CASE NO. 1:17CV02500
JUDGE JACK ZOUHARY
MAGISTRATE JUDGE
JONATHAN D. GREENBERG
REPORT & RECOMMENDATION

This matter is before the magistrate judge pursuant to Local Rule 72.2. Before the Court
is the Petition of Dwayne Wilson (“Wilson” or “Petitioner”), for a Writ of Habeas Corpus filed
pursuant to 28 U.S.C. § 2254. Wilson is in the custody of the Ohio Department of Rehabilitation
and Correction pursuant to journal entry of sentence in the Cuyahoga County case State v.
Wilson, CR-14-590113-A. For the following reasons, the undersigned recommends the Petition
be DISMISSED.
I. Summary of Facts
In a habeas corpus proceeding instituted by a person in custody pursuant to the judgment
of a state court, factual determinations made by state courts are presumed correct unless rebutted
by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see also Franklin v. Bradshaw, 695

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 2 of 29. PagelD#:1616

F.3d 439, 447 (6th Cir. 2012); Montgomery v. Bobby, 654 F.3d 668, 701 (6th Cir. 2011). The
state appellate court summarized the facts underlying Wilson’s conviction as follows:
{12} The Cuyahoga County Grand Jury returned a 14-count indictment
charging Wilson with: (l)-(2) rape, R.C. 2907.02(A)(2), (3) kidnapping,
R.C. 2905.01(A)(4), (4)-(5) rape, R.C. 2907.02(A)(2), (6) kidnapping, R.C.
2905.01(A)(4), (7)-(8) rape, R.C. 2907.02(A)(2), (9) kidnapping, R.C.
2905.01(A)(4), (10) rape, R.C. 2907.02(A)(2), (11) kidnapping, R.C.
2905.01(A)(4), (12)-(13) rape 2907.02(A)(2), and (14) kidnapping, R.C.
2905.01(A)(4).
{13} Am.Sub.S.B. No. 2 (“S.B. 2”), 146 Ohio Laws, part IV, 7136, became
effective on July 1, 1996, and H.B. 86 became effective on September 30,
2011. Counts 1 through 9 alleged offenses occurring before S.B. 2 became
effective, and Counts 10 through 14 alleged offenses occurring after S.B. 2
became effective.
(14} The state dismissed Counts 7, 8, and 9 before trial. The matter
proceeded to a jury trial on the remaining 11 counts. At the close of trial, the
jury found Wilson guilty of rape as charged in Counts 1, 2, 4, 5, 10, 12, and
13. Furthermore, the jury found Wilson guilty of kidnapping as charged in
Counts 3, 6, 11, and 14. Regarding Counts 10, 11, 12, 13, and 14, the trial
court found Wilson to be a sexual predator pursuant to H.B. 180.
{U 5} At sentencing, the trial court imposed a definite prison term of ten
years on Counts 1 through 6, and imposed a prison term of life with parole
eligibility at ten years on Counts 10 through 14. The trial court ordered
Wilson to serve all counts consecutively, for an aggregate prison term of 110
years to life. The trial court credited Wilson with 166 days of time served.
State v. Wilson, 51 N.E.3d 676, 679 (Ohio 8th App. Dist. Apr. 28, 2016).
II. Procedural History
A.

Trial Court Proceedings
On October 9, 2014, a Cuyahoga County Grand Jury indicated Wilson with (1) nine

counts of rape in violation of Ohio Rev. Code (“O.R.C.”) §2907.02(A)(2) (Counts One, Two,
Four, Five, Seven, Eight, Ten, Twelve, Thirteen) and (2) five counts of kidnapping in violation
ofORC §2905.01(A)(4) (Counts Three, Six, Nine, Eleven, Fourteen). (Doc. No. 7-1, Exh. 1.)
2

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 3 of 29. PagelD#:1617

Wilson entered pleas of not guilty to all charges. (Doc. No. 7-1, Exh. 2.) Prior to trial, Counts
Seven, Eight, and Nine were dismissed without prejudice. (Doc. No. 7-1, Exh. 5.)
On February 7, 2015, Wilson, through counsel, filed Motion to Sever Counts for Trial.
(Doc. No. 7-1, Exh. 3.) The State filed a Brief in Opposition. (Doc. No. 7-1, Exh. 4.) The state
trial court denied this motion. (Doc. No. 8 at Tr. 16.)
The case proceeded to jury trial on February 11, 2015. (Id. at Tr. 4.) Pursuant to Ohio
Crim. R. 29, Wilson moved for an acquittal at the close of the State’s case, which the trial court
denied. (Id. at Tr. 910-911.) Wilson renewed his Ohio Crim. R. 29 Motion after the defense
rested and the state trial court again denied the motion. (Id. at Tr. 919.) On February 19, 2015,
the jury returned its verdict, finding Wilson guilty of all remaining charges (Counts One, Two,
Three, Four, Five, Six, Ten, Eleven, Twelve, Thirteen, Fourteen). (Doc. No. 7-1, Exh. 5.)
On April 1, 2015, the state trial court held a sentencing hearing. The trial court sentenced
Wilson to ten years each for Counts One, Two, Three, Four, Five, and Six and to life with parole
eligibility after 10 years each for Counts Ten, Eleven, Twelve, Thirteen, and Fourteen. (Doc. No.
7-1 Exh. 7.) The trial ordered for the sentences to be served consecutively, for an aggregate
sentence of 110 years. (Id.) The trial court also found Wilson was a sexual predator pursuant to
H.B. 180. (Id.)
B.

Direct Appeal
On April 17, 2015, the State filed a notice of appeal to the state appellate court. (Doc.

No. 7-1, Exh. 8.) The State raised the following assignment of error:
I.

Because Defendant-Appellee committed his offenses prior to July 1,
1996, the trial court erred when it sentenced Defendant-Appellee
under sentencing provisions effective July 1, 1996 and H.B. 86
provisions effective September 30, 2011.
3

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 4 of 29. PagelD#:1618

(Doc. No. 7-1, Exh. 12.)
On June 17, 2015, Wilson, through counsel, filed a Motion for Delayed Appeal with the
state appellate court. (Doc. No. 7-1, Exh. 10.) The state appellate court granted this Motion.
(Doc. No. 7-1, Exh. 11.) That same date, Wilson filed an Amended Notice of Appeal/Cross
Appeal with the state appellate court. (Doc. No. 7-1, Exh. 9.) In his appellate brief, Wilson
raised the following assignments of error:
I.

The trail court erred in imposing a sentence under the statutory sentencing scheme
in effect at the time of the offense in 1993.

II.

The trial court erred by denying Appellee Cross-Appellant’s Motion to Sever Trial
of Offense the Offenses Charged.

III.

The trial court erred by not dismissing cross-appellant’s Motion to Dismiss his
Indictment for Pre-Indictment Delay.

(Doc. No. 7-1, Exh. 13.) The State filed a brief in response. (Doc. No. 7-1, Exh. 14.) On April
28, 2016, the state appellate court affirmed Wilson’ convictions. (Doc. No. 7-1, Exh. 15.)
On June 13, 2016, the State filed a Notice of Appeal with the Supreme Court of Ohio.
(Doc. No. 7-1, Exh. 16.) The State raised the following Proposition of Law:
A defendant who commits an offense prior to July 1, 1996 is subject to law in
effect at the time of the offense and not subject to sentencing provisions of
H.B. 86 effective September 30, 2011.
(Doc. No. 7-1, Exh. 17.)
On July 25, 2015, Wilson, proceeding pro se, filed a Motion for Leave to File a Delayed
Appeal and a Notice of Appeal with the Supreme Court of Ohio. (Doc. No. 7-1, Exh. 18, 19.)
Within his Motion for Leave, Wilson explained he had filed a Notice of Appeal within the fortyfive day time “limit, but [he] received [his] date stamped original and copy back with a letter
from one of the Deputy Clerks stating that [he] did not include an notarized affidavit og[sic]
4

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 5 of 29. PagelD #: 1619

indigency.” (Doc. No. 7-1, Exh. 19.) Wilson raised the following Propositions of Law:
I.

The trial court erred by denying Appellant’s Motion to Sever Trial(s)
of the offense(s) charged. And the Eighth District Court of Appeals
erred in siding with the trial court.

II

The trial court erred by not dismissing Appellant’s Motion to Dismiss
his indictment for pre-indictment delay.

{Id) The State did not file a response.
On September 14, 2016, the Supreme Court of Ohio denied Wilson’s Motion for Leave to
File a Delayed Appeal. (Doc. No. 7-1, Exh. 20.) On November 23, 2016, the Supreme Court of
Ohio declined to accept jurisdiction of the State’s appeal pursuant to S.Ct. Prac.R. 7.08(B)(4).
(Doc. No. 7-1, Exh. 21.)
C.

Post-Conviction Filings
On August 20, 2015, Wilson filed a pro se Petition to Vacate or Set Aside Judgment of

Conviction or Sentence with the state trial court. (Doc. No. 7-1, Exh. 22.) This Petition raised
the following arguments:
I.

Defendant was denied his right to a Constitutional Right Sixth
Admenment[sic] a fast and speedy trail because he was not brought
before this court after 180 day(s)

II.

Defendant was denied Constitutional Right to Fifth and Fourteenth
Amendment to Due Process, Submitted 2941.40 in a timely fashion.

III.

Defendant was denied constitutional right(s) to the Fifth and
Fourteenth, and the Eighth Amendment(s). DUE PROCESS; CRUEL
AND UNUSUAL PUNISHMENT.
Petitioner was declared to be a sexual predator by determination of
the Cuyahoga County Psychologist, and Court(s) and sentenced under
the Ohio State Statute(s) accordingly. At no time has the Cuyahoga
County Court(s) allowed the petitioner the opportunity to be
examined by any independent psychologist/psychiatrist. Sexual
disorder(s) fall under the realm of Mental Health. By not allowing
this petitioner access to either his own independent evaluation, and or
5

Case: 1:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 6 of 29. PagelD#:1620

treatment(s) in lieu of conviction, as with similar mental health
issue(s), drug(s) and alcohol, anger management, etc., this petitioner
has been in fact discriminated against.
(Id.) The state trial court denied this Petition on September 1, 2015. (Doc. No. 7-1, Exh. 23.)
On October 30, 2015, Wilson, proceeding pro se, filed a “Motion for Delayed Appeal
with Mitigating Circumstances” and “Motion to Provide Defendant Proper Notice.” (Doc. No. 71, Exh. 31.) The state trial court denied both Motions as moot on November 16, 2015. (Id.)
On February 28, 2017, Wilson filed another pro se Petition to Vacate or Set Aside
Judgment of Conviction or Sentence with the state trial court. (Doc. No. 7-1, Exh. 24.) This
Petition raised the following arguments:
I.

Petitioner/Def. Was denied due process and protection from double
jeopardy under: United States Constitution Fifth (5) Amendment, and
Ohio Constitution Article I, Section Ten (10), as well as Ohio
Revised Code 2943.09.

II.

Petitioner/Def. Was denied due process via compulsory process, and
suffered cruel and unusual punishment under: United States
Constitution Sixth (6) Amendment, Eighth (8) Amendment,
Fourteenth (14) Amendment, Section One (1); Ohio Constitution
Article I, Section(s) Nine (9) and Ten (10); American(s) with
Disabilities Act; Ohio Revised Code 2945.371
(A)(B)(D)(E)(F)(G)(1)(2)(4).

III.

Petitioner/Def. was denied due process, suffered discrimination, as
well as cruel and unusual punishment under:
United States Constitution Fifth (5) Amendment
Eighth (8) Amendment
Ninth (9) Amendment
Fourteenth (14) Amendment
Ohio Constitution Article I, Section(s) Nine (9)and Ten (10)

(Id.) On June 16, 2017, the State filed a brief in opposition to Wilson’s Motion. (Doc. No. 7-1,
Exh. 26.) The state trial court denied Wilson’s Motion on June 21, 2017. (Doc. No. 7-1, Exh.
27.)

6

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 7 of 29. PagelD#:1621

Also on February 28, 2017, Wilson filed a pro se “Motion to Provide Findings of Fact(s)
Conclusion(s) of Law Pursuant to O.R.C. 2953.21(C)(G).” (Doc. No. 7-1, Exh. 25.) Within this
Motion, Wilson argued the state trial court’s September 1, 2015 journal entry denying his first
Petition to Vacate or Set Aside Conviction did not contain any findings of fact or conclusions of
law. (Id.) The state trial court denied Wilson’s Motion on June 21, 2017. (Doc. No. 7-1, Exh.
28.)

D.

State Habeas Corpus Petition
On November 17, 2017, Wilson filed a pro se Petition for State Writ of Habeas Corpus in

the Lucas County Court of Common Pleas. (Doc. No. 7-1, Exh. 29.) Wilson’s Petition raised the
following arguments:
1.

Petitioner, Dwayne Wilson, makes application for a Writ of Habeas
Corpus to seek an hearing due to his unlawful/illegal incarceration at
the Toledo Correctional Institution, by one Coleman, Warden, and
employee of the State of Ohio, Department of Rehabilitation and
Corrections, situated at 8001 East Central Ave., Toledo-Ohio 43608
in Lucas County which is the jurisdiction of this Honorable Court.

2.

In accordance with Ohio Revised Code 2725.06, the petitioner states:
The Cuyahoga County Prosecutor’s Office, nor the Cuyahoga County
Court of Common Pleas, nor the Cuyahoga County Sheriff s Office,
nor the Cleveland-Ohio City Police Department, individually, nor in
concerted action had any legal or lawful jurisdiction of the subject
matter over any C.P.D. incident report(s), complaint(s),
information(s), indictment(s) submitted, charged and convicted, in
whole or in part(s), with case no. CR-14-509113-A as of December
31st 2006. “Any and all informations), complaint(s), or indictment(s)
which had been, or were pending, resulting in charge(s) against him
in Cuyahoga County’s jurisdiction” were rendered void pursuant to
Ohio Revised Code 2941.401. Request by a prisoner for trial on
pending charge(s), Notice of Availability which was mailed out to: A.
The Cuyahoga County Clerk of Court at 1200 Ontario Street,
Cleveland-Ohio 44113, as well as B. The Cuyahoga County
Prosecutor’s Office at 1200 Ontario Street, Cleveland-Ohio 44113.
On or about the 23rd day of June 2006, petitioner filed his paperwork
7

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 8 of 29. PagelD#:1622

with the then Warden of the Belmont Cor. Inst., located at 68518
Bannock Road, State Route 331, St. Clairsville-Ohio 43950, “Notice
of Availability, complete with Certificate of Service, Notarized” and
file stamped June 29th, 2006.
On numerous occasions petitioner has been arrested, charged, no
billed, indicted, indictment was dismissed by Cuyahoga County
Judge Carolyn B. Friedland on January 25th, 2006. As previously
stated Notice of Availability was in fact filed and received. On
October of 2014, petitioner was again picked up by the Cuyahoga
County Sheriffs from Grafton Corr. Inst. And taken to the Cuyahoga
County Jail. Unbeknown to the petitioner he had once again been
indicted by the Cuyahoga County Prosecutor’s Office based on the
same incident report(s), complaint(s), information(s), charge(s)
steming[sic] from allegation(s) from 1994, 1995, 1996 and 1997. It is
with this old incident report, complain, information, indictment and
pending charge(s) that was dismissed in January 2006, and was the
subject of the Notice of Availability, as well as the Request by a
prisoner for trial on pending charge(s) that was incorporated into the
case no. CR-14-509113-A.
3.

The order(s) of the trial court, Cuyahoga County Court of Common
Pleas, Nancy R. McDonnell, are attached as required.

4.

Petitioner does not have an adequate remedy at law.

5.

Petitioner is hereby requesting an immediate hearing into, and on,
these issue(s) more fully explained in the attached complaint.

(Id.) The State filed a Motion to Dismiss this Petition on January 24, 2018. (Doc. No. 7-1, Exh.
30.) On May 24, 2018, the Lucas County Court of Common Pleas granted the State’s Motion to
Dismiss and dismissed Wilson’s Petition. (Lucas County Case No. G-4801-CI-201705213-000,
Docket Entry dated May 24, 2018.).
E.

Federal Habeas Petition
On November 20, 2017,1 Wilson filed a Petition for Writ of Habeas Corpus in this Court

1 Under the mailbox rule, the filing date for a pro se petition is the date that a petitioner
delivers it to prison authorities. See Houston v. Lack, 487 U.S. 266 (1988). While the
8

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 9 of 29. PagelD#:1623

and asserted the following grounds for relief:
GROUND ONE: Violation of due process, Speedy Trial
Supporting Facts: Def. - Appl. - Petitioner did in fact file
numerous Notice of Availabilities, as well as filing numerous
Request by a prisoner for trial on pending charge(s).
GROUND TWO: Violation of due process, Double Jeopardy
Supporting Facts: Def. - Appel. - Petitioner was in front of
Judge C. Friedland, and charge(s) were dismissed, without
prejudice. Def.- Pet. Filed notice, was not taken to trial. This
was 2006. In 2014, Def. - Pet. was arrested and tried for the
exact same information, complaint, or untried indictment. Def.
- Appel. - Petitioner had also been No Billed by Cuyahoga
County Grand Jury on Feb., 1996, on exact same information,
complaint, pending charge(s).
GROUND THREE: Violation of due process, compulsory process:
Supporting Facts: Cuyahoga County Prosecutor told jury that witness did
not remember Def. - Appel - Petitioner because she was beaten and had a
nervous breakdown. Was not able to subpoena expert witness to verify
claim. I myself am on the veterans caseload, I was not allowed to
subpoena witness(es), or gain report(s) as to my own standing.
Alledged[sic] victim answered that “she did not know Def. - Appel. Petitioner.” Cuyahoga County Prosecutor offered jury an explanation of
mental trauma for this/her memory lapse without proof; passing theory off
as a fact.
GROUND FOUR: Violation of due process; Discrimination® Cruel and Unusual
Punishment; Illegal/Unlawfull[sic] Prosecution . . .
Supporting Facts: My attorney, the prosecutor, the trial judge all know of
me as being on the mental health caseload and completely took advantage
of that fact by using extreme tactic(s) to try and break me down and take a
plea deal, or do something that would further expand my already perilous
situation.

Petition herein did not arrive at the Court for filing until November 29, 2017, Wilson states
he placed it in the prison mailing system on November 20, 2017. (Doc. No. 1 at 20.) Thus,
the Court will consider the Petition as filed on November 20, 2017.
9

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 10of 29. PagelD#:1624

1. Got up early mornings and kept all day in room(s) with no drinking
water.
2. Left in small room(s) all day long 8:am to 5:pm with no food/water.
3. Using official prosition(s)[sic] in an illegal manner/ to gain
advantage(s).
4. Ignoring fact(s), or lack there-of because of the nature of the offense(s).
5. Allowed court ordered judicial instruction(s) of my criminal history to
be heard by jury.
(Doc. 1.)
On March 5, 2018, Warden Coleman (“Respondent”) filed his Return of Writ. (Doc. No.
7.) Wilson filed a Traverse on June 4, 2018. (Doc. No. 14.)
III. Exhaustion and Procedural Default
A.

Grounds Two, Three, & Four
Respondent argues Grounds, Two, Three, and Four of the Petition are procedurally

defaulted. (Doc. No. 7 at 17.) Respondent asserts that while these claims were all raised in
Wilson’s second petition for post-conviction relief, “Wilson defaulted the claims by failing to file
an appeal” to the state appellate court. (Id.) Respondent also argues “this was not the first
opportunity to raise” these claims. (Id.) Respondent maintains Wilson is unable to establish
cause, prejudice, or miscarriage of justice to avoid procedural default. (Id. at 18.)
Wilson contends since the state trial court did not provide findings of fact and
conclusions of law when denying his second petition for post-conviction relief, he did not have a
“final appealable order” upon which to appeal this petition. (Doc. No. 14 at 4.)
Petitioners must exhaust their state remedies prior to raising claims in federal habeas
corpus proceedings. See 28 U.S.C. § 2254(b),( c). This requirement is satisfied “when the
highest court in the state in which the petitioner was convicted has been given a full and fair
opportunity to rule on the petitioner's claims.” Manning v. Alexander, 912 F.2d 878, 881 (6th
10

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 11 of 29. PagelD #: 1625

Cir.1990).
Federal courts will not consider the merits of procedurally defaulted claims, unless the
petitioner demonstrates cause for the default and prejudice resulting therefrom, or where failure
to review the claim would result in a fundamental miscarriage of justice. See Lundgren v.
Mitchell, 440 F.3d 754, 763 (6th Cir. 2006) (citing Wainwright v. Sykes, 433 U.S. 72, 87, 97
S.Ct. 2497, 53 L.Ed.2d 594 (1977)). A claim may become procedurally defaulted in two ways.
Id. First, a petitioner may procedurally default a claim by failing to comply with state procedural
rules in presenting his claim to the appropriate state court. Id.; see also Maupin v. Smith, 785
F.2d 135, 138 (6th Cir. 1986). If, due to petitioner's failure to comply with the procedural rule:
the state court declines to reach the merits of the issue, and the state procedural rule is an
independent and adequate grounds for precluding relief, the claim is procedurally defaulted.2 Id.
Second, a petitioner may also procedurally default a claim by failing to raise and pursue
that claim through the state's “ordinary appellate review procedures.” O'Sullivan v. Boerckel,
526 U.S. 838, 848, 119 S.Ct. 1728, 144 L.Ed.2d 1 (1999). If, at the time of the federal habeas
petition, state law no longer allows the petitioner to raise the claim, it is procedurally defaulted.

2 In Maupin, the Sixth Circuit established a four-step analysis to determine whether a claim
is procedurally defaulted. 785 F.2d at 135. Under this test, the Court decides (1) whether the
petitioner failed to comply with an applicable state procedural rule, (2) whether the state
courts actually enforced the state procedural sanction, (3) whether the state procedural bar
is an “independent and adequate” state ground on which the state can foreclose federal
review, and (4) whether the petitioner has demonstrated “cause” and “prejudice.” Id. at
138-39; Barkley v. Konteh, 240 F. Supp.2d 708 (N.D. Ohio 2002). “In determining whether
a state court actually enforced a procedural rule, we apply the ‘plain statement’ rule of
Michigan v. Long, 463 U.S. 1032, 103 S.Ct. 3469, 77 L.Ed.2d 1201 (1983).” Lovins v.
Parker, 712 F.3d 283,296 (6th Cir. 2013) (“a procedural default does not bar consideration
of a federal claim on either direct or habeas review unless the last state court rendering a
judgment in the case ‘clearly and expressly’ states that its judgment rests on the procedural
bar.”) (citations omitted).
11

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 12 of 29. PagelD #: 1626

Engle v. Isaac, 456 U.S. 107, 125 n. 28, 102 S.Ct. 1558, 71 L.Ed.2d 783 (1982); see also
Coleman v. Thompson, 501 U.S. 722, 731-32, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991); Lovins,
712 F.3d 283, 295 (6th Cir. 2013) (“a claim is procedurally defaulted where the petitioner failed
to exhaust state court remedies, and the remedies are no longer available at the time the federal
petition is filed because of a state procedural rule.”) This second type of procedural default is
often confused with exhaustion. Exhaustion and procedural default, however, are distinct
concepts. AEDPA's exhaustion requirement only “refers to remedies still available at the time of
the federal petition.” Engle, 456 U.S. at 125 n. 28. Where state court remedies are no longer
available to a petitioner because he failed to use them within the required time period, procedural
default and not exhaustion bars federal court review. Id. In Ohio, a petitioner is not entitled to
raise claims in post-conviction proceedings where those claims could have been raised on direct
appeal. Id. Thus, if an Ohio petitioner failed to raise a claim on direct appeal, which could have
been raised, the claim is procedurally defaulted. Id.
A claim is adequately raised on direct appeal if it was “fairly presented” to the state court.
To fairly present a claim to a state court a petitioner must assert both the legal and factual basis
for his claim. See McMeans v. Brigano, 228 F.3d 674, 681 (6th Cir. 2000). Accordingly, a
“petitioner must present his claim to the state courts as a federal constitutional issue-not merely
as an issue arising under state law.” Koontz v. Glossa, 731 F.2d 365, 368 (6th Cir. 1984). A
petitioner can take four actions in his brief which are significant to the determination as to
whether a claim has been fairly presented as a federal constitutional claim: (1) reliance upon
federal cases employing constitutional analysis; (2) reliance upon state cases employing federal
constitutional analysis; (3) phrasing the claim in terms of constitutional law or in terms

12

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 13 of 29. PagelD #: 1627

sufficiently particular to allege a denial of a specific constitutional right; or (4) alleging facts well
within the mainstream of constitutional law. Williams v. Anderson, 460 F.3d 789, 806 (6th Cir.
2006).
A petitioner's procedural default, however, may be excused upon a showing of “cause”
for the procedural default and “actual prejudice” from the alleged error. See Maupin, 785 F.2d at
138-39. “Demonstrating cause requires showing that an ‘objective factor external to the defense
impeded counsel's efforts to comply’ with the state procedural rule.” Franklin v. Anderson, 434
F.3d 412, 417 (6th Cir. 2006) (quoting Murray v. Carrier, 477 U.S. 478, 488 (1986)).
Meanwhile, “ [demonstrating prejudice requires showing that the trial was infected with
constitutional error.” Id. Where there is strong evidence of a petitioner's guilt and the evidence
supporting petitioner's claim is weak, the actual prejudice requirement is not satisfied. See
United States v. Frady, 456 U.S. 152, 172, 102 S.Ct. 1584, 71 L.Ed.2d 816 (1982); Perkins v.
LeCureux, 58 F.3d 214, 219-20 (6th Cir. 1995); Rust v. Zent, 17 F.3d 155, 161-62 (6th Cir.
1994). Prejudice does not occur unless petitioner demonstrates “a reasonable probability” that
the outcome of the trial would have been different. See Mason v. Mitchell, 320 F.3d 604, 629
(6th Cir. 2003) (citing Strickler v. Greene, 527 U.S. 263, 289, 119 S.Ct. 1936, 144 L.Ed.2d 286
(1999)).
Finally, a petitioner's procedural default may also be excused where a petitioner is
actually innocent in order to prevent a “manifest injustice.” See Coleman v. Thompson, 501 U.S.
722, 749-50, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991). Conclusory statements are not enough—a
petitioner must “support his allegations of constitutional error with new reliable
evidence-whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or

13

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 14 of 29. PagelD #: 1628

critical physical evidence-that was not presented at trial.” Schlup v. Delo, 513 U.S. 298, 324, 115
S.Ct. 851, 130 L.Ed.2d 808 (1995). See also Jones v. Bradshaw, 489 F. Supp.2d 786, 807 (N.D.
Ohio 2007); Allen v. Harry, 2012 WL 3711552 at * 7 (6,h Cir. Aug. 29, 2012).
With these principles in mind, the Court finds Grounds Two, Three, and Four3 of
Wilson’s federal habeas petition are procedurally defaulted. Wilson did not raise any of these
claims on direct4 appeal. {See Doc. No. 7-1, Exh. 13, Doc. Nos.l, 14.) It was not until Wilson’s
February 28, 2017 pro se Petition to Vacate or Set Aside Judgment of Conviction or Sentence in
which he raised these arguments with the state trial court. (Doc. No. 7-1, Exh. 24.) However,
this Petition was not timely. Pursuant to O.R.C. §2953.21(A)(2), Wilson was required to file his

These grounds are as follows: (1) Ground Two asserts Double Jeopardy violations
due to Wilson being “arrested, imprisoned, charged, indicted, and released” on
multiple occasions for the same acts (Doc. No. 14 at 14-15); (2) Ground Three raises
Due Process/Compulsory Process/Confrontation Clause violations due to the
prosecutor’s comments regarding a witness’s inability to identify him at trial {Id. at
16-17); and (3) Ground Four raises two different arguments - a B.C.I. agent’s
testimony inappropriately referenced his criminal history and the court, the
prosecutor and his own attorney “took advantage” of his mental health issues “to try
and break him down.” (Doc. No. 1 at 15, Doc. No. 14 at 18.)
On direct appeal, Wilson raised the following assignments of error:
I.

The trail court erred in imposing a sentence under the statutory
sentencing scheme in effect at the time of the offense in 1993.

II.

The trial court erred by denying Appellee Cross-Appellant’s Motion
to Sever Trial of Offense the Offenses Charged.

III.

The trial court erred by not dismissing cross-appellant’s Motion to
Dismiss his Indictment for Pre-Indictment Delay.

(Doc. No. 7-1, Exh. 13.)
14

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 15 of 29. PagelD #: 1629

motion for post-conviction relief within 365 days of the date upon which the trial transcript was
filed in the state appellate court. The docket reviews the trial transcripts were filed with the state
appellate court on May 27, 2015. (Doc. No. 7-1, Exh. 32.). Wilson thereafter had until May 27,
2016 to file his petition for post-conviction relief, making his February 28, 2017 post conviction
petition late. On June 21, 2017, the state trial court denied Wilson’s petition, stating only that the
Petition was denied. (Doc. No. 7-1, Exh. 27.) Wilson did not appeal this denial.
The Court finds Wilson’s failure to timely file his second post-conviction petition
resulted in procedural default. The time for Wilson to timely seek relief in a post-conviction
filing had long passed when he initially raised the arguments contained in Grounds Two, Three,
and Four. Ohio's timeliness requirements in post-conviction proceedings constitute an
independent and adequate state ground for declining to review the merits of a petitioner's claims
and finding procedural default. Townsend v. Gansheimer, 2009 WL 589332, * 7 (N.D.Ohio Mar.
9, 2009); Wolff v. Tibbies, 2014 WL 2694227 at * 14 (N.D. Ohio June 13, 2014); Brown v.
Clipper, 2016 WL 5173331, *23 (N.D. Ohio Sept. 21,.2016).
Wilson argues he was not able to appeal the state trial court’s denial of his Petition
because it did not contain findings of fact and conclusions of law. (Doc. No. 14 at 4.) He asserts
the state trial court’s order left him “without lawful remedy to proceed into Court of Appeal(s).”
(Id.) Under Ohio law, when a trial court dismisses a timely post-conviction petition, the court
must “make and file findings of fact and conclusions of law and shall enter judgment denying
relief on the petition.” O.R.C. § 2953.21(G) (2015), amended by O.R.C. §2953.21(D)(2017).
However, when a post-conviction petition is untimely, the state trial court “need not issue
findings of fact and conclusions of law when it dismisses an untimely petition.” State ex rel.

15

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 16 of 29. PagelD#:1630

Kimbrough v. Greene, 781 N.E.2d 155, 156 (Ohio 2002). See also State ex rel. Dillon v. Cottrill,
145 Ohio St.3d 264, 265 (Ohio 2016). Here, Wilson’s February 28, 2017 post-conviction filing
was untimely. Thus, the state trial court was not required to issue findings of fact and
conclusions of law.
The Court acknowledges the state trial court’s June 21, 2017 decision did not indicate
whether the denial of Wilson’s petition was due to untimeliness, res judicata, the merits, or some
other reason. However, because “Ohio trial courts are excused from filing findings of fact and
conclusions of law” this implies the “petition was dismissed as untimely.” Hilliard v. Bracy,
2018 WL 7200439, *10 (N.D. Ohio Nov. 26, 2018), report and recommendation adopted, 2019
WL 425970 (N.D. Ohio Feb. 4, 2019). See also Harrington v. Ritchter, 562 U.S. 86, 99
(201 l)(indicating that “state procedural principles” may rebut the ordinary presumption that a
claim was denied on the merits). Further, Wilson did not present these claims on direct appeal, in
a timely post-conviction petition, or an appeal of the denial of his untimely post-conviction
petition. The Court is not aware of any other state court remedy which continues to be available5
for Wilson to raise Grounds Two, Three, and Four of his federal habeas petition. Thus, the Court
finds these grounds to be procedurally defaulted.
a.

Cause and Prejudice

Wilson may nevertheless obtain a merits review of this claim if he can demonstrate cause
for the default and prejudice resulting therefrom, or that failure to review the claim would result
in a fundamental miscarriage of justice. See Lundgren, 440 F.3d at 763, Wilson asserts he was

Indeed, an unsuccessful post-conviction petitioner must appeal within 30 days of
judgment. Ohio R. App. P. 4(A)(1), (B)(2)(D). There are no delayed appeals in a
post-conviction context. State v. Harvey, 428 N.E.2d437,438 (Ohio Ct. App. 1980).
16

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 17 of 29. PagelD #: 1631

unable to appeal the denial of his post-conviction petition because the trial court did not provide
its reasons for denying the petition. (Doc. No. 14 at 4.) However, this argument does not
provide any explanation as to why Wilson did not raise these grounds for relief in a timely
petition for post-conviction relief or upon direct appeal. Indeed, he did not raise these arguments
until February 2017, nearly two years after his conviction and a nearly a year after the state
appellate court affirmed his conviction on direct appeal. State trial courts in Ohio have
jurisdiction to hear timely filed petitions for post-conviction relief while direct appeals are
pending. See O.R.C. § 2953.21(D) (“The court shall consider a petition that is timely filed under
division (A)(2) of this section even if a direct appeal of the judgment is pending.) See also
Morgan v. Eads, 104 Ohio St.3d 142, 145, 818 N.E.2d 1157, 1160 (Ohio 2004) (“Trial courts
routinely consider petitions for postconviction relief even while an appeal from the conviction is
pending either in the court of appeals or in this court.”). As discussed supra, while the state trial
court did not provide any findings of fact or conclusions or law, it was not required to do so.
Thus, the lack of explanation contained in the state trial court’s June 2017 order cannot serve as
cause to excuse the default of these particular habeas claims.
As Wilson is unable to establish cause to excuse his procedural default, the Court declines
to address the issue of prejudice. See Simpson v. Jones, 238 F.3d 399, 409 (6th Cir.2000)
(“When a petitioner fails to establish cause to excuse a procedural default, a court does not need
to address the issue of prejudice.”); Group v. Robinson, 158 F.Supp.3d 632, 651 (N.D. Ohio Jan.
20, 2016).
Accordingly, and for all the reasons set forth above, the Court finds Wilson has failed to
establish cause and prejudice to excuse the procedural default of Grounds Two, Three, and Four.

17

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 18 of 29. PagelD#:1632

b.

Actual Innocence

Because the cause and prejudice standard is not a perfect safeguard against fundamental
miscarriages of justice, the United States Supreme Court has recognized a narrow exception to
the cause requirement where a constitutional violation has “probably resulted” in the conviction
of one who is “actually innocent” of the substantive offense. Dretke v. Haley, 541 U.S. 386, 124
S.Ct. 1847, 158 L.Ed.2d 659 (2004) (citing Carrier, 477 U.S. at 495-96); see also Schlup, 513
U.S. at 327 (1995). Actual innocence means “factual innocence, not mere legal insufficiency.”
Bousleyv. United States, 523 U.S. 614, 623-24, 118 S.Ct. 1604, 140 L.Ed.2d 828 (1998). To be
credible, such a claim requires the petitioner to support his allegations of constitutional error with
new and reliable evidence that was not presented at trial. Schlup, 513 U.S. at 324; see also
Gulertekin v. Tinnelman-Cooper, 340 F.3d 415, 427 (6th Cir. 2003).
Wilson has not provide any argument in which to establish actual innocence. He does not
point to any new, reliable evidence of his innocence which was not presented at trial. Absent
new evidence of innocence, “even the existence of a concededly meritorious constitutional
violation is not in itself sufficient to establish a miscarriage of justice that would allow a habeas
court to reach the merits of a barred claim.” Schlup, 513 U.S. at 316.
Accordingly, and in light of the above, it is recommended Grounds Two, Three, and Four
of Wilson’s habeas petition be DISMISSED as procedurally defaulted.
B.

Ground One
In his first ground for relief, Wilson argues the state trial court violated his due process

and speedy trial rights. (Doc. No. 1 at 6.) In support of this ground for relief, Wilson references
the “Notice of Availabilities” and “Request by a prisoner for trial” he submitted prior to his

18

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 19 of 29. PagelD #: 1633

October 9, 2014 indictment. (Id.) (See also Doc. No. 14-6, 14-7, 14-8.)
Respondent argues Ground One of Wilson’s petition is procedurally defaulted. (Doc. No.
7 at 13.) Respondent asserts this claim is procedurally defaulted because Wilson “failed to file a
motion for preindictment delay prior to trial” and the “state appellate court recognized the default
and only reviewed the claim for plain error.” (Id. at 14.) Respondent contends Wilson
“compounded his default by failing to file a timely appeal with the Supreme Court of Ohio.” (Id.
at 15.) Respondent maintains Wilson cannot establish cause, prejudice, or actual innocence to
excuse this default. (Id. at 16, 17.)
Wilson asserts he attempted the address the issue of preindictment delay to the state trial
court “after the jury was empaneled, but, before they were led into the courtroom for the start of
the trial.” (Doc. No. 14 at 9.) He contends the trial court “abruptly cut him off when he tried to
exercise due diligence in bringing to the trial court’s attention this Constitutional Violation.” (Id.
at 10.)
On direct appeal, Wilson raised an argument regarding preindictment delay to the state
appellate court. (Doc. No. 7-1, Exh. 13.) In its decision, the state appellate court

found

Wilson had waived this argument at the trial level and conducted a “plain error” review of the
issue:
60} Wilson argues that the trial court erred by not dismissing Counts 4, 5,
6, 10, and 11 based on preindictment delay.
{^f 61} We initially note that Wilson neither filed a motion to dismiss for
preindictment delay, raised the issue of preindictment delay, nor asserted a
violation of his due process rights in the trial court. Thus, as Wilson raises
the issue of preindictment delay for the first time on appeal, we review for
plain error. See State v. Berry, 10th Dist. Franklin No. 97AP-964, 1999 WL
437217 (June 29, 1999) (noting “[a] defendant must assert the issue of denial
of a speedy trial at or prior to the commencement of trial or the issue is
19

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 20 of 29. PagelD#:1634

waived on appeal”); State v. Turner, 168 Ohio App.3d 176, 2006-Ohio-3786,
858 N.E.2d 1249, 21 (5th Dist.) (noting “an appellant cannot raise a speedy
trial issue for the first time on appeal”). Pursuant to the terms of Crim.R.
52(B), plain errors or defects that affect substantial rights may be grounds for
reversal even though they were not brought to the attention of the trial court.
“Notice of plain error under Crim.R. 52(B) is to be taken with the utmost
caution, under exceptional circumstances and only to prevent a manifest
miscarriage of justice.” State v. Long, 53 Ohio St.2d 91, 372 N.E.2d 804
(1978), paragraph three of the syllabus.
ITI62} The statute of limitations for a criminal offense is a defendant's
primary protection against overly stale criminal charges. United States v.
Marion, 404 U.S. 307, 322, 92 S.Ct. 455, 30 L.Ed.2d 468 (1971). Pursuant to
R.C. 2901.13(A)(3), the statute of limitations for rape and kidnapping is 20
years. In the instant matter, Wilson was indicted within the 20-year statutory
period.
{f 63} However, the Due Process Clause of the Fifth Amendment has been
applied in some circumstances to provide additional protection against
egregious delay in instituting prosecutions. United States v. Lovasco, 431
U.S. 783, 97 S.Ct. 2044, 52 L.Ed.2d 752 (1977). As with all due processes
claims, a claim of preindictment delay rests on “basic concepts of due
process and fundamental justice.” State v. Jones, 2015-Ohio-2853, 35 N.E.3d
606, 13 (8th Dist.).
(Tf 64} To establish that preindictment delay violated the Due Process
Clause, a defendant must show (1) that the delay caused actual and
substantial prejudice to his right to a fair trial, and (2) that the state delayed
prosecution to gain a tactical advantage or slowed the process down for some
other impermissible reason. United States v. Gouveia, 467 U.S. 180, 192, 104
S.Ct. 2292, 81 L.Ed.2d 146 (1984), citing Lovasco at 789, 97 S.Ct. 2044;
State v. Luck, 15 Ohio St.3d 150, 472 N.E.2d 1097 (1984), paragraph two of
the syllabus. In State v. Whiting, 84 Ohio St.3d 215, 702 N.E.2d 1199 (1998),
the Ohio Supreme Court held that the second element of the test requires the
state to produce evidence of a justifiable reason for the delay. Id. at 217, 702
N.E.2d 1199. Thereafter, the due process inquiry involves a balancing test by
the court, weighing the reasons for the delay against the prejudice to the
defendant, in light of the length of the delay. State v. Walls, 96 Ohio St.3d
437, 2002-0hio-5059, 775 N.E.2d 829, ^ 51. Decisions to grant or deny a
motion to dismiss for preindictment delay are reviewed for an abuse of
discretion. State v. Darmond, 135 Ohio St.3d 343, 2013-Ohio-966, 986
N.E.2d 971,133, citing State v. Parson, 6 Ohio St.3d 442, 453 N.E.2d 689
(1983).

20

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 21 of 29. PagelD #: 1635

{^| 65} To show actual prejudice, a defendant must establish the “exculpatory
value” of the alleged missing evidence. State v. Wade, 8th Dist. Cuyahoga
No. 90029, 2008-Ohio-4574, 2008 WL 4174867, ^ 45. This requires a
showing of how unavailable evidence or testimony would have proven an
asserted defense. State v. Robinson, 6th Dist. Lucas No. L-06-1182,
2008-Ohio-3498, 2008 WL 2700002, U 121. Prejudice may be established
where the defendant contends that the delay resulted in the loss of witness
testimony, lost memory, or spoiled or destroyed evidence. State v. Doksa,
113 Ohio App.3d 277, 281, 680 N.E.2d 1043 (8th Dist.1996). Courts have
consistently held that proof of actual prejudice must be “ ‘specific,
particularized, and non-speculative.’ ” State v. McFeeture, 2014-Ohio-5271,
24 N.E.3d 724, 120 (8th Dist.), quoting State v. Strieker, 10th Dist.
Franklin No. 03AP-746, 2004-Ohio-3557, 2004 WL 1488730, ^ 36.
{][ 66} Wilson cites Jones, 2015-Ohio-2853, 35 N.E.3d 606 (8th Dist.) (en
banc), to support his argument that Counts 4, 5, 6, 10, and 11 should be
dismissed based on preindictment delay. In Jones, the defendant was charged
with rape and kidnapping in 2013 from an incident allegedly occurring in
1993. Id. at 3. The victim told the police that she and Jones went to his
mother's house and got into a violent argument, during which Jones took her
into a bedroom and raped her. Id. at f 4. The victim reported the crime to the
police, identified Jones by name, and submitted to rape kit testing. The police
took the victim's clothing and obtained the 911 call reporting the alleged
rape. Jones claimed that the police interviewed him and he told them that he
and the victim engaged in consensual sexual conduct. However, the police
claimed that they were unable to locate the victim for a subsequent
follow-up, so they shelved the rape kit and closed the case until such time as
the victim came forward. When the police finally tested the rape kit and
received positive results for Jones's DNA, they waited more than a year to
reopen the case, and indicted him on the last day of the 20-year limitations
period.
{^] 67} Jones filed a motion to dismiss the indictment, claiming that the
20-year delay caused him actual prejudice in offering a defense that the
victim consented to sexual conduct. As proof of actual prejudice, he claimed
an inability to offer evidence from his mother, by then deceased, who was in
the house at the time of the alleged rape and would have corroborated his
assertion that he and the victim were in a relationship and that there was no
violent fight as described by the victim. Furthermore, Jones argued that the
clothing that the victim wore on the night of the alleged rape had been
destroyed, denying him the opportunity to examine it and undermine her
claim that she and Jones engaged in a violent fight. The trial court granted
Jones's motion to dismiss based on preindictment delay, finding that (1) the
mother's death, the loss of physical evidence, and the certainty of diminishing
21

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 22 of 29. PagelD #: 1636

memories, constituted actual prejudice, and (2) the state offered no
justification or satisfactory reason for the delay.
{If 68} Jones prompted this court's en banc consideration of “the standard for
demonstrating actual prejudice” in rape cases filed on the eve of the 20-year
statute of limitations after rape kits were finally submitted for testing. Id. at ^
13. This court stated that we would evaluate claims of actual prejudice “in
terms of basic concepts of due process and fundamental justice.” Id. at ^ 47.
This court found that the trial court did not abuse its discretion by concluding
that Jones established actual prejudice from the preindictment delay:
in this case, where the identity of the defendant as the accused
perpetrator was known from the beginning, where the state barely
investigated the case and closed it within one week of the start of its
investigation, and where no further investigation or technological
advances occurred in the time between the initial investigation and
the indictment, we evaluate Jones's claim of actual prejudice in terms
of basic concepts of due process and fundamental justice.
In so evaluating his claim, we find that he suffered actual prejudice in
the near 20-year delay in prosecuting him. This is the type of case the
Ohio Supreme Court warned of in Walls, 96 Ohio St.3d 437,
2002-0hio-5059, 775 N.E.2d 829, where the state “simply fails, or
refuses, to take action for a substantial period.” Id. at ^ 56.
Id. at U 47-48.
H 69} After reviewing the record, we find that the facts of the instant matter,
unlike Jones, do not warrant the conclusion that the court committed plain
error by allowing the state to proceed to trial on Counts 4, 5, 6, 10, and 11.
H 70} First, regarding actual prejudice, Wilson emphasizes that at the time
of trial, the offenses charged in Counts 4, 5, and 6 were nearly 20 years old,
and the offenses charged in Counts 10 and 11 were more than 17 years old.
However, aside from the passage of time, Wilson fails to identify any
evidence or potential witnesses that would have helped him prove his
innocence had the trial occurred sooner. Notably, Wilson fails to provide
concrete proof of (1) any physical evidence that has exculpatory value, (2)
any potential witness who can no longer testify, or (3) a witness's faded
memory or recollection of the events that would have affected the
preparation of his defense or changed the outcome at trial. See State v.
Clemons, 2013-Ohio-5131, 2 N.E.3d 930, U 17 (8th Dist.). We have
consistently held that speculation does not show actual prejudice. Thomas,
8th Dist. Cuyahoga No. 101202, 2015-Ohio415, 2015 WL 477228, at H 11;
McFeeture, 2014-Ohio-5271, 24 N.E.3d 724, at ^ 120. By merely speculating
22

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 23 of 29. PagelD #: 1637

that he was prejudiced by the passage of time between the 1995 and 1997
offenses and the 2014 indictment, Wilson has failed to demonstrate that he
suffered actual prejudice from the delay in bringing this prosecution. Thus,
we cannot say that the trial court committed plain error for allowing the state
to try Wilson on Counts 4, 5, 6, 10, and 11.
(T1 71} As Wilson failed to present evidence of substantial prejudice, the state
has no burden of producing evidence of a justifiable reason for the delay in
prosecution. Walls, 96 Ohio St.3d 437, 2002-0hio-5059, 775 N.E.2d 829, at
Tf 51; see Clemons at 22. Nevertheless, for the reasons that follow, we find
that the state's delay in prosecution was justifiable.
(U 72} Second, regarding the delay in prosecution, Wilson argues that
Counts 4, 5, 6, 10, and 11 should be dismissed because although the police
knew his identity around the time of the attacks, the police and the state
“engaged in a minimal investigation” and did nothing between the time of
the initial investigations and his indictment 15-20 years later. Regarding the
case involving Victim 2, the prosecutor stated that Wilson was arrested
within 5 days of the incident, but “[Wilson] was released and the case did not
go forward.” Wilson argues that the police did nothing to further investigate
the matter involving Victim 2 for the next 15 years until submitting the
evidence and rape kit to the Bureau of Criminal Investigation (“BCI”) and
receiving a DNA match in CODIS. Furthermore, regarding the case
involving Victim 3, the prosecutor stated that Wilson was indicted for the
attack in 2006, but the case was dismissed when she failed to appear in court.
Wilson argues that although the police knew his identity, the evidence
regarding Victim 3's attack “sat dormant for years and years.”
{][ 73} The state argues that the delay in prosecution was justifiable and not
an effort to gain a tactical advantage. Regarding the case involving Victim 2,
the state contends that Wilson was never indicted for the attack before the
2014 indictment in the instant matter. Regarding the case involving Victim 3,
the state contends that the 2006 case was dismissed when the victim failed to
appear in court for trial. Furthermore, the state argues that it did not cease
actively investigating the case based on negligence or an error in judgment.
The state emphasizes that the DNA evidence linking Wilson to the four
attacks is new evidence that was not available at the time of.the initial
investigations.
H 74} In Luck, 15 Ohio St.3d 150, 472 N.E.2d 1097, the Ohio Supreme
Court addressed unjustifiable delays in prosecution:
a delay in the commencement of prosecution can be found to be
unjustifiable when the state's reason for the delay is to intentionally
23

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 24 of 29. PagelD #: 1638

gain a tactical advantage over the defendant, see United States v.
Marion, supra, or when the state, through negligence of error in
judgment, effectively ceases the active investigation of a case, but
later decides to commence prosecution upon the same evidence that
was available to it at the time that its active investigation was ceased.
(Emphasis added.) Id. at 158, 472 N.E.2d 1097.
{^] 75} After review, when balancing the alleged prejudicial delay in this case
against the state's justifiable reason for the delay, we conclude that Wilson's
due process rights were not violated. Furthermore, we cannot say that the
state's delay in prosecuting Wilson was egregious, intended to gain a tactical
advantage over Wilson, or the result of negligence of error in judgment. The
DNA evidence linking Wilson to the four attacks was new evidence
justifying the delayed indictment. See State v. Bell, 8th Dist. Cuyahoga No.
102141, 2015-Ohio-4178, 2015 WL 5854368, If 47 (defendant’s DNA
evidence found on a swab taken from the victim's vagina was new evidence
justifying the delayed indictment). Thus, we find that the state's delay in
prosecuting Wilson was justified.
(Tl 76} As Wilson failed to demonstrate that he suffered actual prejudice
from the delay in prosecution, and the state's delay in prosecution was
justified, we cannot say that the trial court committed plain error by allowing
the state to prosecute Wilson on Counts 4, 5, 6, 10, and 11. Dismissal on the
basis of preindictment delay was not warranted. Accordingly, the second
assignment of error raised by Wilson on cross-appeal is overruled.
Wilson, 51 N.E.3d at 689-693.
In Ohio, a petitioner waives an alleged error when he fails to make a contemporaneous
objection. Osborne v. Ohio, 495 U.S. 103, 124, 110 S.Ct. 1691, 109 L.Ed.2d 98 (1990)
(recognizing Ohio’s long-standing contemporaneous objection rule). The Sixth Circuit has held
that Ohio’s “contemporaneous objection rule is an adequate and independent state ground barring
federal habeas review, Biros v. Bagley, 422 F.3d 379, 387 (6th Cir.2005), and that plain-error
review is not inconsistent with the procedural default.” Awkal v. Mitchell, 613 F.3d 629,
648-649 (6th Cir.2010) (citing Lundgren, 440 F.3d at 765); Hinkle v. Randle, 271 F.3d 239, 244
(6th Cir.2001). “The state court’s plain error review did not constitute a waiver of the procedural
24

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 25 of 29. PagelD #: 1639

default.” Mason v. Brunsman, 483 Fed. Appx. 122, 130-31 (6th Cir.2012). See also Shafer v.
Wilson, 364 Fed. Appx. 940, 945 (6th Cir.2010) (finding the State of Ohio expressly enforced its
contemporaneous objection rule where “the last state court to render a reasoned opinion in this
case, the Ohio Court of Appeals on direct appeal, noted the failure to object, applied plain-error
review, and denied [appellant’s] claims for relief”)
Here, as the state appellate court correctly noted, Wilson did not file a motion to dismiss
for preindictment delay in the state trial court. Accordingly, the first three elements of Maupin
test are satisfied as Wilson failed to comply with the contemporaneous objection rule, the state
appellate court actually enforced the rule, and the rule constitutes an “independent and adequate”
state ground on which the state can foreclose federal review.
Wilson argues he raised this issue to the state trial court, but was “abruptly cut [] off’
when he attempted to assert his due process and speedy trial rights. (Doc. No. 14 at 9-10.) A
review of the state trial court transcript reveals Wilson, without the assistance of counsel,
requested the state trial court “dismiss all these charges against [him] for violation of speedy trial
and due process” prior to the jury being empaneled. (Doc. No. 8 at Tr. 16.) The state trail court
explained to Wilson he could not make a motion on his own behalf while he had counsel
representing him. {Id. at Tr. 18.) The state trial court also explained if Wilson “did not file a
motion with this Court, then there is no motion.” {Id.) The state trial court also concluded “the
speedy trial statute6 has not been violated.” {Id. at Tr.19.)

The Court acknowledges Wilson filed a pro se Petition to Vacate or Set Aside
Judgment of Conviction or Sentence with the state trial court on August 20, 2015.
(Doc. No. 7-1, Exh. 22.) Within this Petition, Wilson attempted to refashion his pre­
indictment delay claim, arguing the state trial court violated O.R.C § 2941.401, a
provision contained in Ohio’s speedy trial statute. {Id.) Wilson raised a similar
25

Case: l:17-cv-02500-JZ Doc#: 16 Filed: 03/26/19 26 of 29. PagelD#:1640

Assuming, arguendo, Wilson’s discourse with the state trial court constituted him raising
a speedy trial claim, this ground for relief would still be procedurally defaulted. Indeed, Wilson
attempted7 to obtain a delayed appeal with the Supreme Court of Ohio, which the Supreme Court

argument in his state habeas corpus action, which was denied by the Lucas County
Court of Common Pleas on May 24, 2018. (Doc. No. 7-1, Exh. 29; Lucas County
Case No. G-4801-CI-201705213-000, Docket Entry dated May 24, 2018).
As an initial matter, Wilson did not raise any arguments regarding this statute in his
Petition, but does reference O.R.C § 2941.401 in his Traverse. (Doc. No. 1 at 6;
Doc. No. 14 at 8.) O.R.C § 2941.401 generally provides when a person who is
serving a term of imprisonment in an Ohio facility has a pending indictment against
him in state court, he must be brought to trial on those untried charges within 180
days of a proper written request for their early disposition. See O.R.C § 2941.401.
To the extent this is even a different argument from which was raised on direct
appeal, it is not cognizable under federal habeas review. See Krause v TimmermanCooper, 2014 WL 1408050, *3-4 (S.D, Ohio Apr. 11, 2014)(“Finally, the question
of what Ohio Revised Code §2941.401 means as applied to Krause’s situation is a
question of Ohio law.”), report and recommendation adopted, 2014 WL 4101299
(S.D. Ohio Aug. 18,2014); Tisdale v. Eberlin, 2010 WL 455279, *6 (N.D. Ohio Feb.
3, 2010)(“Ground two, alleging that Tisdale was denied his right to speedy trial
under Ohio Revised Code §2941.401, should be dismissed as non-cognizable in a
federal habeas court proceeding.”).
Moreover, Wilson was indicted on October 9, 2014 and was brought to trial on
February 11, 2015, well within a 180-day time frame. (Doc. No. 7-1, Exh. 1, Doc.
No. 8 at Tr. 4.) Wilson appears to be centering his preindictment delay/speedy trial
claim on a “Notice of Availability” he issued on June 29, 2006. (Doc. No. 14 at 8,
Doc. No. 14-8 at 1.) However, at that time, he had no pending indictment against
him. As Wilson concedes, the prior indictment had already been dismissed by the
time he filed a “Notice of Availability.” (Doc. No. 7-1, Exh. 24, 15.)
Regardless, the arguments Wilson raises in both his August 2015 post conviction
petition and his state habeas action are simply a re-framing of the issue he raised on
direct appeal: that the charges against him were not timely filed and brought to trial.
These arguments were addressed and rejected by the state appellate court and Wilson
did not timely file an appeal of this decision. {See Doc. No. 7-1, Exh. 15, 20.)

Wilson did originally attempt to file his appeal prior to the deadline. (Doc. No. 7-1,
Exh. 19.) However, in a letter dated June 14, 2016, the Deputy Clerk of the Ohio
26

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 27 of 29. PagelD #: 1641

denied. (Doc. No. 7-1, Exh. 19, 20.) This failure to timely file an appeal resulted in procedural
default. The Sixth Circuit has held the Supreme Court of Ohio’s unexplained entry denying a
motion for leave to file a delayed appeal constitutes an adequate and independent state
procedural ruling sufficient to bar review of a federal habeas corpus petition. Bonilla v. Hurley,
370 F.3d 494, 497 (6th Cir. 2004) (per curiam); see also Baker v. Bradshaw, 495 Fed. App’x
560, 565 (6th Cir. 2012) ( “[t]his court has held that violation of... the timeliness requirements
for an appeal to the Ohio Supreme Court... constitute^] adequate and independent state grounds
to preclude hearing an untimely claim on the merits”). Here, because Wilson did not timely
appeal to the Supreme Court of Ohio and his request to file a delayed appeal was denied, the
state's highest court never had the opportunity to consider the merits of Wilson’s claims. Thus,
the Court finds Wilson’s First Ground for Relief is procedurally defaulted.
Federal courts will not consider the merits of procedurally defaulted claims, unless the
petitioner demonstrates cause for the default and prejudice resulting therefrom, or where failure

Supreme Court informed Wilson his mailed documents to the court were not being
filed and were being returned to him because he was not in compliance with Ohio
S.Ct. Prac. R. 3.04 or 3.06(A), by failing to provide either a $100 filing fee or
notarized affidavit of indigence. (Id.) The form letter used by the Deputy Clerk to
return Wilson’s papers is a “well-established and regularly-followed practice at the
time of Petitioner's procedural default for the clerk not to file, but rather to return,
documents submitted for filing, by criminal defendants that failed to satisfy the
requirements for pleadings explicitly set forth in the court's procedural rules.” Smith
v. Jackson, 2007 WL 2084840 at *8 (S.D.Ohio July 19, 2007). Thus, the Deputy
Clerk’s enforcement of the rule also constitutes an “adequate and independent”
ground upon which to foreclose federal habeas review. Henson v. Hudson, 2009 WL
2588927, *7 (N.D. Ohio Apr. 2, 2009)(“Accordingly, the state procedural ground
relied upon by the deputy clerk in not opening a case, not filing Petitioner’s timely
but insufficient documents, and returning these documents to Petitioner as
improperly filed, is an adequate and independent ground.”), report and
recommendation adopted, 2009 WL 2567727 (Aug. 17, 2009).
27

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 28 of 29. PagelD #: 1642

to review the claim would result in a fundamental miscarriage of justice. See Lundgren, 440 F.3d
at 763 (citing Wainwright, 433 U.S. at 87.) As noted above, “[demonstrating cause requires
showing that an ‘objective factor external to the defense impeded counsel's efforts to comply’
with the state procedural rule.” Franklin, 434 F.3d at 417 (quoting Carrier, All U.S. at 488.
Here, Wilson has not presented any explanation for his failure to file a Motion to Dismiss for pre­
indictment delay with the state trial court or timely file an appeal8 with the Supreme Court of
Ohio. Moreover, he has not raised any arguments his trial counsel was ineffective9 in failing to
file such a motion. In addition, Wilson has not presented a credible claim of actual innocence.
Accordingly, and for all the reasons set forth above, it is recommended Ground One be
dismissed as procedurally defaulted.
V. Conclusion
For all the reasons set forth above, it is recommended that the Petition be DISMISSED.
Date: March 26, 2019

8

s/ Jonathan Greenberg_____
Jonathan D. Greenberg
United States Magistrate Judge

Wilson cannot argue he failed to file a timely appeal due to the ineffective assistance
of counsel because did not have the right to counsel in his discretionary appeal to the
state supreme court. Halbert v. Michigan, 545 U.S. 605, 628 (2005). Thus, any
ineffective assistance which may have prevented him from filing a timely appeal to
the state supreme court cannot constitute cause to excuse the procedural default.
Gulertekin v. Tinnelman-Cooper, 340 F.3d 415,425 (6th Cir.2003), citing Coleman
v. Thompson, 501 U.S. 722, 752-53, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991).
Even if Wilson could present this claim by re-framing the issue as a failure of
appellate counsel to properly raise it on direct appeal, Wilson did not file a Rule
26(B) application, and the time to do so has now expired. The Ohio Supreme Court
Rule of Practice 7.01(A)(4)(c) specifically does not permit delayed appeals in Rule
26(B) proceedings.
28

Case: l:17-cv-02500-JZ Doc #: 16 Filed: 03/26/19 29 of 29. PagelD #: 1643

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days after the party objecting has been served with a copy of
this Report and Recommendation. 28 U.S.C. § 636fb¥lt. Failure to file objections within
the specified time may waive the right to appeal the District Court’s order. See United
States v. Walters. 638 F.2d 947 (6th Cir. 19811: Thomas v. Am. 474 U.S. 140 <19851. reh ’g
denied. 414 U.S. 1111 09861.

29

(Wv. Appwbi* C

Ff'I

♦

Cl]e Supreme Court of QDfjto

*j

t"'-

t iL„

!<»:?

5r»-i*.-„.,l

ED
i

SEP a 2816

CLERK OF COURT
SUPREME COURT OE OHIO
//

State of Ohio
v.

Case No. 2016-0885

Iss*

ENTRY

$

Dwayne Wilson

$
X

Upon consideration of appellant’s motion for a delayed cross-appeal, it is ordered by
the court that the motion is denied. Accordingly, this cause is dismissed.

(Cuyahoga County Court of Appeals; No. 102921)

mjulKax

J

Maureen O’Connor
Chief Justice

j

*

i

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

Pet. AppEtJbx* D

✓

1

ILlD
acou.a v
zOlil HAY 24 PH 2: ! I
CCTWfm PLEAS COURT
PriA!F OUiLTFR
uLcKK OF COURIS

IN THE COURT OF COMMON PLEAS
LUCAS COUNTY, OHIO

DWAYNE WILSON
Petitioner
vs.

*
*
*
*
*
*

JOHN COLEMAN, Warden,
Respondent.

*
*
*
*
*

52.12)

Case No. G-4801-CI 2017-E?86'-000

JUDGMENT ENTRY ON
RESPONDENT'S MOTION TO
DISMISS

JUDGE GARY G. COOK

This matter is before the Court on Respondent John Coleman's, Warden of the Toledo
Correctional Institution, (hereinafter "Respondent") Motion to Dismiss, filed January 24, 2018.
r

Petitioner Dwayne Wilson (hereinafter "Petitioner") filed his Rebuttal Brief with Motion to Set
Hearing on February 23, 2018. No reply brief was filed by Respondent, so this motion is now
decisional.
1

E-JOURNALIZED
MAY 2 5 2018

Pet. Append DXV- E
APg

Court of appeals? of cS^fjto
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA

JOURNAL ENTRY AND OPINION
No. 102921

STATE OF OHIO
i'.

A •

PLAINTIFF-APPELLANT/
CROSS-APPELLEE
vs.

DWAYNE WILSON
DEFENDANT-APPELLEE/
CROSS-APPELLANT

JUDGMENT:
AFFIRMED

Criminal Appeal from the
Cuyahoga County Court of Common Pleas
Case No. CR-14-590113-A
BEFORE: Celebrezze, J., Keough, P.J., and Kilbane, J.
RELEASED AND JOURNALIZED: April 28, 2016
( CR14590113-A
i

93914423

£

I

-1-

5

•;

ATTORNEYS FOR APPELLANT/CROSS-APPELLEE
f

■

• \

Timothy J. McGinty
Cuyahoga County Prosecutor
BY: Daniel T. Van
Assistant Prosecuting Attorney
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, Ohio 44113 ■,
ATTORNEY FOR APPELLEE/CROSS-APPELLANT
)

Michael P. Maloney
24441 Detroit Road
Suite 200
Westlake, Ohio, 44145

\

v

:

i

:
j -

i

!

/: •
• f

i

>.

• »r\
'

'

'>■

i

;

i

t

:

.»
'•t

f

if
I

Pet. Appfodt* F
88672433

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
THE STATE OF OHIO
Plaintiff

Case No: CR-14-590113-A
Judge: NANCY R MCDONNELL

DWAYNE WILSON
Defendant

INDICT: 2907.02 RAPE
2907.02 RAPE
2905.01 KIDNAPPING
ADDITIONAL COUNTS...

JOURNAL ENTRY
DEFENDANT IN COURT WITH PUBLIC DEFENDER FRANK CAVALLO.
COURT REPORTER LUANN CAWLEY PRESENT.
ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF RAPE 2907.02 A(2) F1 AS CHARGED
IN COUNT(S) 1, 2, 4, 5 OF THE INDICTMENT.
ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF KIDNAPPING 2905.01 A(4) FI AS
CHARGED IN COUNT(S) 3, 6 OF THE INDICTMENT.
ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF RAPE 2907.02 A(2) FI UNDER
COUNT(S) 10. 12. 13 OF THE INDICTMENT.
ON A FORMER DAY OF COURT THE JURY RETURNED A VERDICT OF GUILTY OF KIDNAPPING 2905.01 A(4) FI WITH
SEXUAL MOTIVATION SPECIFICATION(S) 2941.147 UNDER COUNT(S) 11, 14 OF THE INDICTMENT.
COUNT(S) 7, 8, 9 WASAVERE DISMISSED.
(COUNTS 7, 8 AND 9 DISMISSED WITHOUT PREJUDICE PRIOR TO TRIAL)
DEFENDANT ADDRESSES THE COURT, PROSECUTOR MARY C. WESTON AND ED BRYDLE ADDRESSES THE COURT.
THE COURT CONSIDERED ALL REQUIRED FACTORS OF THE LAW.
THE COURT FINDS THAT PRISON IS CONSISTENT WITH THE PURPOSE OF R. C. 2929.11.
THE COURT IMPOSES A PRISON SENTENCE AT THE LORAIN CORRECTIONAL INSTITUTION.
10 YEARS ON COUNTS 1, 2, 3, 4, 5 AND 6; LIFE WITH PAROLE ELIGIBILITY AT 10 YEARS ON COUNTS 10,11, 12, 13,
AND 14.
ALL SENTENCES TO RUN CONSECUTIVELY FOR AN AGGREGATE OF 110 YEARS. NONE OF THE COUNTS MERGE.
THE COURT FINDS THAT CONSECUTIVE SENTENCES ARE NECESSARY TO BOTH PROTECT THE PUBLIC AND
PUNISH THE OFFENDER, THAT THE SENTENCE IS NOT DISPROPORTIONATE TO THE SERIOUSNESS OF OFFENDER'S
CONDUCT AND TO THE DANGER HE POSES TO THE PUBLIC. AND THAT THE HARM IS SO GREAT OR UNUSUAL
THAT A SINGLE TERM DOES NOT ADEQUATELY REFLECT THE SERIOUSNESS OF THE CONDUCT AND THE
OFFENDER'S CRIMINAL HISTORY SHOWS THAT CONSECUTIVE TERMS ARE NEEDED TO PROTECT THE PUBLIC.
DEFENDANT TO RECEIVE JAIL TIME CREDIT FOR 166 DAY(S), TO DATE.
AS TO EACH COUNT, POST RELEASE CONTROL IS PART OF THIS PRISON SENTENCE FOR 5 YEARS MANDATORY
FOR THE ABOVE FELONY(S) UNDER R.C.2967.28. DEFENDANT ADVISED THAT IF/WHEN POST RELEASE CONTROL
SUPERVISION IS IMPOSED FOLLOWING HIS/HER RELEASE FROM PRISON AND IF HE/SHE VIOLATES THAT
SUPERVISION OR CONDITION OF POST RELEASE CONTROL UNDER RC 2967.131(B), PAROLE BOARD MAY IMPOSE
A PRISON TERM AS PART OF THE SENTENCE OF UP TO ONE-HALF OF THE STATED PRISON TERM ORIGINALLY
IMPOSED UPON THE OFFENDER.
DEFENDANT FOUND TO BE A SEXUAL PREDATOR PURSUANT TO PRIOR LAW IN HB 180 HEARING.
DEFENDANT ADVISED OF APPEAL RIGHTS.
DEFENDANT INDIGENT, COURT APPOINTS MICHAEL P MALONEY AS APPELLATE COUNSEL.
TRANSCRIPT AT STATE'S EXPENSE.
THE COURT HEREBY ENTERS JUDGMENT AGAINST THE DEFENDANT IN AN AMOUNT EQUAL TO THE COSTS OF
THIS PROSECUTION.
SENT
04/01/2015
RECEIVED FOR FILING
04/08/2015 16:15:02
NAILAH K. BYRD, CLERK

Page 1 of2

"I

*

pST. Api>£lODX^- F

!!.
Ill

88672433

DEFENDANT REMANDED.
SHERIFF ORDERED TO TRANSPORT DEFENDANT DWAYNE WILSON, DOB: 09/27/1960, GENDER: MALE, RACE:
BLACK.
04/01/2015
CPEDB 04/06/2015 16:08:57

04/08/2015

Judge Signature

r------

/

SENT
04/01/2015
RECEIVED FOR FILING
04/08/2015 16:15:02
NA1LAH K. BYRD, CLERK

Page 2 of 2

i

I

Pet. Awenot* G»
90747122

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
THE STATE OF OHIO
Plaintiff

Case No: CR-14-590113-A
Judge: NANCY R MCDONNELL

DWAYNE WILSON
Defendant

INDICT: 2907.02 RAPE
2907.02 RAPE
2905.01 KIDNAPPING
ADDITIONAL COUNTS...

JOURNAL ENTRY
DEFENDANT'S MOTION TO VACATE OR SET ASIDE JUDGMENT OF CONVICTION OR SENTENCE FILED ON 08/20/2015
IS DENIED.
09/01/2015
CPJL2 09/01/2015 13:41:08

Judge Signature

09/01/2015

HEAR
09/01/2015
RECEIVED FOR FILING
09/01/2015 16:46:18
NAILAH K. BYRD, CLERK

Page 1 of 1

